CERTIFICATE OF COMPLIANCE
Case Nos
. 20-316, 20-357
Caption: Pappas v. A.F. Moore, et al.
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 4,881 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on October 8, 2020.

Samantha Collins
Record Press, Inc.

Sworn to before me on
October 8, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 01OS6101366
Qualified in Kings County
Commission Expires November 10, 2023

Notary Public

